HHS/OIG, Audit -"Review of Medicaid Upper Payment Limit Requirements For Michigan, Michigan Department of Community Health, Lansing, Michigan,"(A-05-03-00065)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of Medicaid Upper Payment Limit Requirements For Michigan, Michigan Department of Community Health, Lansing,
Michigan," (A-05-03-00065)
January 20, 2004
Complete
Text of Report is available in PDF format (206 KB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this audit was to determine whether Michigan’s methodology and calculations for the upper payment
limit  (UPL) and related payments were reasonable and in accordance with revised Federal regulations and the approved
State plan.  Our audit period covered the implementation of the new UPL regulations for State Fiscal year 2003.  Our
review disclosed that the Michigan UPL and the related payments were reasonable and calculated in accordance with the revised
Federal regulations and the approved State plan.   In addition, the UPL payments were properly included by Michigan
when calculating disproportionate share hospital specific payment limits.